                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A12080054                                                                       Page 1 of 1



               We received an allegation that a graduate student 1 manipulated research data in a laborator/.
         Our review of the matter determined that an ongoing open case 3 is reviewing the same allegation.
         Accordingly, this case is closed with no further action taken.




NSF OJG Form 2 (11/02)
